                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106


November 8, 2010

Report Number: A-07-10-04164

Mr. Michael Hamerlik
President and Chief Operating Officer
Noridian Administrative Services, LLC
900 42nd Street South
Fargo, ND 58103

Dear Mr. Hamerlik:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Selected Payments for Inpatient Services
Processed by Noridian Administrative Services, LLC, for Calendar Years 2006 Through 2008.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-10-04164 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael Hamerlik

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL


REVIEW OF SELECTED PAYMENTS FOR
 INPATIENT SERVICES PROCESSED BY
NORIDIAN ADMINISTRATIVE SERVICES,
    LLC, FOR CALENDAR YEARS
        2006 THROUGH 2008




                        Daniel R. Levinson
                         Inspector General

                         November 2010
                         A-07-10-04164
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with Medicare contractors to process and pay Medicare claims submitted by
hospitals. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges based on the diagnosis-related group to which a beneficiary’s stay is
assigned. The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3, section 10.1,
requires that hospitals submit claims on the appropriate forms for all provider billings, and
chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

The diagnosis-related group payment is, with certain exceptions, payment in full to the hospital
for all inpatient services. Section 1886(d)(5)(A)(ii) of the Act provides for an additional
payment, knows as an outlier payment, to hospitals for cases incurring extraordinarily high costs.

During calendar years (CY) 2006 through 2008, Noridian Administrative Services, LLC
(Noridian), was the Medicare contractor for Jurisdiction 3 in six States. For Jurisdiction 3,
Noridian processed 121 Medicare Part A inpatient claims during this period in which payments
exceeded charges by at least $25,000. We limited our review to 68 of the 121 inpatient claims
submitted by hospitals that we are concurrently reviewing in an audit of outpatient services
(A-07-10-04163).

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
Noridian made to hospitals for hospital inpatient services were correct.

SUMMARY OF FINDINGS

Of the 68 selected Medicare payments that exceeded charges that Noridian made for inpatient
services for CYs 2006 through 2008, 45 were correct. The 23 remaining payments were
incorrect and included overpayments totaling $714,716, which the hospitals had not refunded by
the beginning of our audit.

Contrary to Federal guidance, hospitals inaccurately billed Medicare by reporting incorrect
procedure codes and by submitting claims with other inaccuracies, the excessive charges for
which resulted in incorrect payments. Hospitals attributed most of the incorrect claims to
clerical errors or to billing systems that could not prevent or detect the incorrect billing of units


                                                   i
of service and other types of billing errors. Noridian made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in place during
our audit period to prevent or detect the incorrect payments.

RECOMMENDATIONS

We recommend that Noridian:

    •   recover the $714,716 in net overpayments and

    •   use the results of this audit in its hospital education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take. Noridian’s comments are
included in their entirety as the Appendix.




                                                   ii
                                                  TABLE OF CONTENTS
                                                                                                                          Page

INTRODUCTION .............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicare Contractors ...................................................................................1
              Claims for Inpatient Services .......................................................................1
              Noridian Administrative Services Limited Liability Corporation ...............2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          FEDERAL REQUIREMENTS ................................................................................3

          INCORRECT MEDICARE PAYMENTS ..............................................................4

          CAUSES OF INCORRECT MEDICARE PAYMENTS ........................................4

          RECOMMENDATIONS .........................................................................................4

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS ....................5

APPENDIX

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted by hospital inpatient departments. 1 The Medicare contractors’
responsibilities include determining reimbursement amounts, conducting reviews and audits,
and safeguarding against fraud and abuse. Federal guidance provides that Medicare
contractors must maintain adequate internal controls over automatic data processing systems
to prevent increased program costs and erroneous or delayed payments. To process hospitals’
inpatient claims, the Medicare contractors use the Fiscal Intermediary Standard System and
CMS’s Common Working File (CWF). The CWF can detect certain improper payments
during prepayment validation.

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full
to the hospital for all inpatient costs associated with the beneficiary’s stay. The Medicare
Claims Processing Manual, Pub. No. 100-04, chapter 3, section 10.1, requires that hospitals
submit claims on the appropriate forms for all provider billings, and chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for an additional Medicare payment, known as
an outlier payment, to hospitals for cases incurring extraordinarily high costs. 2 The Medicare
contractor identifies outlier cases by comparing the estimated costs of a case with a DRG-
specific fixed-loss threshold. 3 To estimate the costs of a case, the Medicare contractor uses

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare
administrative contractors (MAC) between October 2005 and October 2011. Most, but not all, of the MACs are
fully operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and
carriers continue to process claims. For purposes of this report, the term “Medicare contractor” means the fiscal
intermediary, carrier, or MAC, whichever is applicable.
2
 Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s inpatient stay
substantially exceed the DRG payment.
3
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.


                                                          1
the Medicare charges that the hospital reports on its claim and the hospital-specific cost-to-
charge ratio. Inaccurately reporting charges can lead to excessive outlier payments.

Noridian Administrative Services Limited Liability Corporation

During calendar years (CY) 2006 through 2008, Noridian Administrative Services, LLC
(Noridian), was the Medicare contractor 4 for Jurisdiction 3 in six States: Arizona, Montana,
North Dakota, South Dakota, Utah, and Wyoming. For Jurisdiction 3, Noridian processed
121 Medicare Part A inpatient claims during this period in which payments exceeded charges
by at least $25,000.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
Noridian made to hospitals for hospital inpatient services were correct.

Scope

We reviewed 68 of the 121 inpatient claims, processed and paid by Noridian during CYs 2006
through 2008, in which payments exceeded charges by at least $25,000. We simultaneously
performed a separate audit of hospital outpatient claims processed by Noridian. For the
purpose of this inpatient audit, we limited our scope to inpatient claims submitted by hospitals
that we concurrently reviewed in the audit of outpatient services (A-07-10-04163).

We limited our review of Noridian’s internal controls to those that were applicable to the 68
selected Medicare payments because our objective did not require an understanding of all
internal controls over the submission and processing of claims. Our review allowed us to
establish reasonable assurance of the authenticity and accuracy of the data obtained from the
National Claims History file, but we did not assess the completeness of the file.

We conducted fieldwork from August 2009 through April 2010. Our fieldwork included
contacting Noridian, located in Fargo, North Dakota, and contacting the 31 hospitals that
received the selected Medicare payments.

Methodology

To accomplish our objective, we did the following:

      •    We reviewed applicable Federal laws, regulations, and guidance.




4
    Pursuant to the MMA, Noridian became a MAC effective July 31, 2006, which was during our audit period.



                                                         2
   •   We used CMS’s National Claims History file to identify inpatient claims for which the
       payments exceeded charges by at least $25,000.

   •   We contacted the 31 hospitals that received the selected Medicare payments to
       determine whether the information on the claims was correct and, if not, why the
       claims were incorrect.

   •   We used CMS’s National Claims History file to determine whether the relevant
       hospitals had appropriately corrected the incorrect claims.

   •   We discussed the results of our review with Noridian on September 30, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the 68 selected Medicare payments that exceeded charges that Noridian made for inpatient
services for CYs 2006 through 2008, 45 were correct. The 23 remaining payments were
incorrect and included overpayments totaling $714,716, which the hospitals had not refunded
by the beginning of our audit.

Contrary to Federal guidance, hospitals inaccurately billed Medicare by reporting incorrect
procedure codes and by submitting claims with other inaccuracies, the excessive charges for
which resulted in incorrect payments. Hospitals attributed most of the incorrect claims to
clerical errors or to billing systems that could not prevent or detect the incorrect billing of
units of service and other types of billing errors. Noridian made these incorrect payments
because neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in
place during our audit period to prevent or detect the incorrect payments.

FEDERAL REQUIREMENTS

Section 1815(a) of the Act prohibits Medicare payment for claims not supported by sufficient
documentation. The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3,
section 10.1, requires that hospitals submit claims on the appropriate forms for all provider
billings, and chapter 1, section 80.3.2.2, requires that claims be completed accurately to be
processed correctly and promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS
provides for these additional payments, as specified in 42 CFR § 412.80, to hospitals for
covered inpatient hospital services furnished to a Medicare beneficiary if the hospital’s



                                                 3
charges, as adjusted by the hospital-specific cost-to-charge ratio, exceed the DRG payment for
the case.

INCORRECT MEDICARE PAYMENTS

Noridian made 23 overpayments totaling $714,716, which the hospitals had not refunded by
the beginning of our audit. The overpayments involved hospital claims incorrectly submitted
to Medicare as well as claims submitted with inaccurate data, including incorrect procedure
codes and incorrect numbers of billing units of service.

The following examples illustrate the billing errors:

       •   One hospital billed Medicare directly for surgical procedures when it should have
           billed the facility where the patient was a long-term patient, resulting in a total
           overpayment of $73,786.

       •   One hospital billed a patient’s acute respiratory failure as the principal diagnosis,
           when in fact this condition should have been billed as secondary to obstructive sleep
           apnea, resulting in a total overpayment of $66,997.

       •   One hospital billed for an excisional debridement 5 when it should have billed for a
           non-excisional debridement, resulting in a total overpayment of $26,189.

The hospitals attributed most of the incorrect claims to clerical errors or to billing systems that
could not prevent or detect the incorrect billing of units of service and other types of billing
errors.

CAUSES OF INCORRECT MEDICARE PAYMENTS

Noridian made the incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to prevent or detect the overpayments. In
effect, CMS relied on hospitals to notify the Medicare contractors of incorrect payments and
on beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 6

RECOMMENDATIONS

We recommend that Noridian:

       •    recover the $714,716 in net overpayments and

       •    use the results of this audit in its hospital education activities.

5
    Excisional debridement is the surgical removal or cutting away of devitalized tissue.
6
 The Medicare contractor sends a Medicare Summary Notice to the beneficiary after the hospital files a claim for
services. The notice explains the services billed, the approved amount, the Medicare payment, and the amount
due from the beneficiary.


                                                            4
NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take. Noridian’s comments are
included in their entirety as the Appendix.




                                               5
APPENDIX
APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS 





.~
NDRIDIAiV®                                                                             Paul O'Donnell
                                                                                       Vice President
Adminiscrative Services   LLC                                                          Medicare Operations
                                                                                       900 42'" StS
                                                                                       Fargo. NO 58103
                                                                                       (701) 277-2401
                                                                                       FAX (701) 277-5150
                                                                                       paul.odonnell@noridian.com
 November 3, 2010

 Patrick J. Cogley
 Office of Inspector General
 Region VII
 601 East Ith Street
 Room 0429
 Kansas City, MO 64106

 RE: Report Number A-07-10-04164

 Dear Mr. Cogley:

 Thank you for the opportunity to respond to the draft report of the U.S. Department of Health & Human
 Services, Office ofInspector General (OIG) dated October 7, 2010, entitled, Review o/Selected Payments/or
 Inpatient Services Processed by Noridian Administrative Services, LLC, for Calendar Years 2006 Through
 2008. We concur with the recommendations made by the OIG and our responses are below.

 OIG Recommendations:
   • Recover the $7I 4,716 in identified overpayments

            NAS Response: NAS concurs with the recommendation that all overpayments identified ought to be
            collected. Noridian Administrative Services, LLC, (NAS) has reviewed all claims identified as
            overpayment by this report. NAS has already collected these overpayments either by provider refund
            check or adjustments made by the provider.

       •    Use the results     0/ this audit in its hospital education activities
            NAS Response: NAS concurs with the OIG. The OIG will be proving NAS \\lith a detailed listing of
            the audit findings. Upon receipt, NAS will assess the results and direct future hospital education and lor
            focused medical reviews as necessary to address these provider billing errors. Also, with the same
            information, NAS can determine if these billing errors can best be addressed by either system edits or if
            they are best identified through the manual review of medical records.

 Please advise if additional information or further clarification is needed on any of our response.

 Sincerely,

 /s/ PaulO 'Donnell

 Paul O'nolUleII
 Vice President
 Noridian Administrative Services, LLC
 29309515                                  A eMS Con/'ilt-'lld ClVnerl/ulermNian'                            \1110
